No. 20-1180
IN THE SUPREME COURT OF THE UNITED STATES
_________________
TERRITORY OF AMERICAN SAMOA, PETITIONER
v.
NATIONAL MARINE FISHERIES SERVICE, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 12th day of May 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5,333 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
May 12, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 12, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-1180
TERRITORY OF AMERICAN SAMOA
NATIONAL MARINE FISHERIES SERVICE, ET AL.

FAINU'ULELEI FALEFATU ALA'ILIMA-UTU
ATTY. GENERAL OF AMERICAN SAMOA
OFFICE OF THE GOVERNOR
PAGO PAGO
AMERICAN SAMOA
, 96799
684-633-4116
INFO@GO.AS.GOV
DON HONG
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
DON.HONG@KIRKLAND.COM
MICHAEL L. IOSUA
IMANAKA ASATO, LLLC
745 FORT STREET MALL
17TH FLOOR
HONOLULU, HI 96813
808-521-9500
MIOSUA@IMANAKA-ASATO.COM
MICHAEL FRANCIS WILLIAMS
KIRKLAND AND ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-879-5123
MICHAEL.WILLIAMS@KIRKLAND.COM

